May 1, 2007

ELLIS A. BURGOYNE
VICE PRESIDENT, SOUTHWEST AREA OPERATIONS

SUBJECT: Audit Report – Address Management System Information – Southwest Area
         (Report Number DR-AR-07-006)

This report presents the results of our self-initiated audit of Address Management
System (AMS) information in the Southwest Area (Project Number 06XG042DR000).
This is one in a series of reports on AMS information. The information in this report will
be included in a nationwide capping report assessing the management of AMS
information. Our objective was to assess the U.S. Postal Service’s management of
delivery AMS quality review results to ensure address information is correct and
complete to effectively process and deliver the mail in the Southwest Area.

Postal Service officials in the Southwest Area’s Albuquerque, Arkansas, Fort Worth,
Dallas, Houston, Louisiana, and Oklahoma Districts effectively managed delivery AMS
quality review results for approximately 5 percent (822 of 18,019) of their routes
according to Postal Service guidelines. However, opportunities exist for area officials to
implement best management practices similar to the New York Metro Area’s New York
District to improve the quality of AMS data to process and deliver the mail.
Approximately 322,418 AMS data errors may exist in these seven Southwest Area
districts on 17,197 routes for which we did not conduct street reviews. If Southwest
Area officials implemented a program similar to the New York District’s, they could
reduce errors by 31.84 percent, which would save the Postal Service $5,201,116 over
the next 10 years. We will report $5,201,116 of funds put to better use in our
Semiannual Report to Congress.

For fiscal years 2005 and 2006, Southwest Area districts, with the exception of the
Louisiana District, improved their Delivery Point Sequence (DPS) mail volume
percentages. According to the Transformation Plan, the Postal Service’s goal is to sort
95 percent of letters by DPS by 2010. A decrease in AMS data errors will help
Southwest Area officials achieve the DPS goal of 95 percent and will reduce operating
costs.
We recommended the Vice President, Southwest Area Operations, implement an AMS
quality review program similar to the New York District’s that includes providing training
in AMS quality street reviews to delivery supervisors or their designees. We also
recommended establishing an annual district schedule of AMS quality street reviews
and directing delivery supervisors or their designees to review delivery routes annually.
Finally, we recommended the AMS office establish a tracking system for street reviews.

Management agreed in principle with our findings and recommendations and has
initiatives planned addressing the issues in this report. However, officials stated they
could not validate the actual savings amount of $5,201,116 in funds put to better use.
We have included management’s comments and our evaluation of these comments in
the report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Rita Oliver,
Director, Delivery, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations



Attachments

cc: Patrick R. Donahoe
    Kathy Ainsworth
    Charles E. Bravo
    Steve M. Dearing
    William Rucker
    Stephen E. Moreland
    James T. Taylor
    Ennis W. Waldemayer
    Julie Gosdin
    Greg Gamble
    Victor Benavides
    Carl T. January
    Linda J. Welch
    Deborah A. Kendall
Address Management System Information –                                                   DR-AR-07-006
 Southwest Area


                                            INTRODUCTION
Background             Address management is the foundation for how the Postal
                       Service moves mail. Over the years, the Postal Service has
                       worked to obtain the highest quality address information possible
                       for internal use and for its customers. In March 1993, the Postal
                       Service implemented Delivery Point Sequence (DPS).1 DPS is
                       the process of arranging barcoded mail according to the carrier’s
                       line of travel (LOT) to eliminate manual mail sorting, improve
                       efficiency, and reduce costs.

                       In 1994, the Postal Service established the Address Management
                       System (AMS) to capture, correct, and complete address
                       information. AMS uses automation to enhance the efficiency of
                       mail processing and delivery. Address information in AMS is
                       captured in sort programs used to process mail in DPS. A
                       developer creates sort programs as part of the Sort Program
                       System, which is part of the National Directory Support System
                       (NDSS). DPS sort programs are transferred to a Mail Processing
                       Barcode Sorter or a Delivery Barcode Sorter2 for sorting mail into
                       DPS.

                       Mail that cannot be processed on automated equipment requires
                       manual processing, which is less efficient and is costly to the
                       Postal Service. As illustrated in Table 1, during fiscal year (FY)
                       2005, the Postal Service processed 94 billion pieces of letter
                       mail, of which 72 billion pieces (76.8 percent) were processed on
                       automated equipment and the remaining 22 billion pieces (23.2
                       percent) manually. During FY 2006, the Postal Service
                       processed 93.3 billion pieces of letter mail; 74.4 billion pieces
                       (79.7 percent) were processed on automated equipment and the
                       remaining 18.9 billion pieces (20.3 percent) manually.




1
  DPS resulted from an agreement in 1992 with the National Association of Letter Carriers to change the automation
environment.
2
  DPS mail is also sorted on Carrier Sequence Barcode Sorters, a type of mail processing equipment used by smaller
Postal Service facilities.




                                                        1
Address Management System Information –                                                   DR-AR-07-006
 Southwest Area



                                        Table 1. Postal Service Letter Mail Processed in Pieces
                                                          FYs 2005 and 2006

                            Fiscal   DPS Letters    Cased Letters     Total Letter       DPS       Cased Letter
                             Year     (Pieces)        (Pieces)         (Pieces)       Percentage   Percentage




                        In 2003, the Postal Service outlined a strategy to enhance address
                        quality in its Intelligent Mail Corporate Plan. The strategy includes
                        improving the address database, filling change of address orders,
                        and using Address Change Service. To improve the address
                        database, the Postal Service established a delivery AMS quality
                        review program to evaluate the quality of AMS data and meet the
                        goal of 100 percent accurate AMS data nationwide.

                        As part of the quality review program, National Customer Support
                        Center (NCSC) teams annually conduct street reviews of 40 routes
                        at each Postal Service district nationwide. The NCSC team selects
                        40 city or rural delivery routes based on Postal Service guidelines.
                        For every route selected within a ZIP Code, two alternate routes are
                        selected.3

                        The street reviews:

                        •     Identify all possible delivery addresses included in Address
                              Information System products and the NDSS files.

                        •     Validate the number of possible delivery addresses assigned to
                              each carrier route.

                        •     Validate the correct LOT or delivery sequence for each carrier
                              route.

                        •     Assign ZIP+4® Codes to make addresses compatible with
                              automated equipment.

                        •     Verify the standardization of addresses according to Publication
                              28, Postal Addressing Standards, dated July 2006.



3
 The Delivery/AMS Quality Street Review Guidelines, FY 2005 Revision 1, states that NCSC will review 40 routes
annually.




                                                        2
Address Management System Information –                                                   DR-AR-07-006
 Southwest Area



                        •   Review AMS database products to meet the needs and
                            expectations of Postal Service customers.

                        When a district scores below 98 percent on the street review, the
                        NCSC team will review it every 6 months and districts that score from
                        98 to 100 percent receive an annual review. Districts scoring
                        99 percent or higher may receive abbreviated route reviews.

                        In addition to the NCSC street reviews, AMS district officials conduct
                        street reviews of routes to maintain the accuracy of AMS data.
                        Carriers also identify AMS data changes based on their street
                        deliveries. The carriers note address changes in their AMS edit
                        books and submit the information to AMS district officials for review
                        and correction in the AMS database.

                        As the Postal Service continues to process mail on automated
                        equipment, the quality of address information takes on new
                        importance. Use of correct and complete address information can
                        reduce costs to the Postal Service.

Objective,              Our objective was to assess the Postal Service’s management of the
Scope, and              delivery AMS quality review results to ensure address information is
Methodology             correct and complete for effective processing and delivery of mail in
                        the Southwest Area. We obtained data on FYs 2005 and 2006
                        delivery AMS quality reviews from the NCSC to analyze routes
                        reviewed, AMS data errors identified, and performance scores. We
                        selected the Southwest Area’s Albuquerque, Arkansas, Fort Worth,
                        Dallas, Houston, Louisiana, and Oklahoma Districts and the New
                        York Metro Area’s New York District for our reviews, based on the
                        NCSC performance scores identified by delivery AMS quality review
                        results.4

                        We obtained and reviewed prior AMS review results for the New
                        York District, which showed street review performance scores
                        consistently above 99 percent. As a best management practice, we
                        evaluated whether the New York District’s AMS data maintenance
                        program was feasible for other Postal Service districts. Our review of
                        performance scores showed that Southwest Area districts were
                        consistently below 98 percent. (See Appendix A.) We evaluated the
                        districts’ AMS data maintenance process to determine whether they
                        could improve their programs. We also reviewed the districts’

4
 We selected Southwest Area districts based on their historically low performance scores, and we selected the New
York District based on its historically high performance scores and improvements to the AMS process.




                                                        3
Address Management System Information –                                                       DR-AR-07-006
 Southwest Area

                         FY 2005 and 2006 DPS information to compare their DPS volumes
                         to the Postal Service’s goal.5

                         We conducted this audit from July 2006 to May 2007 in accordance
                         with generally accepted government auditing standards and included
                         such tests of internal controls as we considered necessary under the
                         circumstances. We discussed our observations and conclusions with
                         management officials and included their comments where
                         appropriate. We relied on computer-processed information from the
                         Postal Service AMS. We did not directly audit the system, but
                         performed a limited data integrity review to determine whether our
                         data were reliable.

Prior Audit              The OIG has issued six audit reports directly related to our audit
Coverage                 objectives. We have included a complete listing of the reports in
                         Appendix E.




5
  We are planning a future review that will incorporate DPS percentages to identify opportunities to generate revenue,
reduce costs, and improve customer service.




                                                          4
Address Management System Information –                                                      DR-AR-07-006
 Southwest Area


                                            AUDIT RESULTS
    Address                   Postal Service officials in the Southwest Area’s Albuquerque,
    Management                Arkansas, Fort Worth, Dallas, Houston, Louisiana, and Oklahoma
    System                    Districts effectively managed delivery AMS quality review results for
    Information –             approximately 5 percent of their routes.6 However, opportunities exist
    Southwest Area            for area officials to implement best management practices from the
                              New York Metro Area’s New York District to improve the quality of
                              AMS data used to process and deliver mail.

                              In FY 2005, the Southwest Area’s Albuquerque, Arkansas, Fort
                              Worth, Dallas, Houston, Louisiana, and Oklahoma Districts had
                              18,019 total routes, as illustrated in Chart 1. The NCSC teams
                              reviewed 2 percent (280 of 18,019) of these routes according to
                              Postal Service guidelines. The teams identified 5,595 AMS errors,
                              approximately 20 errors for each route. The districts did not achieve
                              the 98 percent AMS target goal. (See Appendix A.) The NCSC
                              teams did not review the remaining 98 percent of the routes (17,739
                              of 18,019). During this period, Southwest Area’s Arkansas, Fort
                              Worth, Louisiana, and Oklahoma Districts reviewed another 3 percent
                              (542 of 18,019) of the routes. The remaining 95 percent (17,197 of
                              18,019) of the routes were not reviewed. (See Appendix B.)

                                 Chart 1. Number and Percentage of Routes Reviewed in Southwest Area Districts:
                                  Albuquerque, Arkansas, Fort Worth, Dallas, Houston, Louisiana, and Oklahoma


                                              Routes not
                                              Reviewed
                                                17,197
                                                 95%
                                                                                               Routes Reviewed
                                                                                                  by NCSC
                                                                                                     280
                                                                                                     2%

                                                               Routes Reviewed by
                                                                 District Officials
                                                                        542
                                                                        3%


                                                     Source: NCSC and Southwest Area Officials




6
 The 5 percent represents 822 routes reviewed out of 18,019 total routes for the seven districts (1,068 for
Albuquerque; 1,707 for Arkansas; 3,500 for Dallas; 2,466 for Fort Worth; 4,300 for Houston; 2,792 for Louisiana; and
2,186 for Oklahoma).




                                                           5
Address Management System Information –                                                     DR-AR-07-006
 Southwest Area




                              Based on these FY 2005 NCSC team reviews, and the related error
                              rate for each route, approximately 322,4187 AMS data errors may
                              exist in these seven districts on the 17,197 routes for which street
                              reviews were not conducted.

                              Local AMS officials currently administer AMS review programs in
                              these seven districts in the Southwest Area. As illustrated in Table 2,
                              at the time of our review, AMS officials performed quality street
                              reviews for 542 routes using local AMS staff. However, AMS officials
                              did not use available district resources, such as delivery supervisors
                              or their designees, to conduct additional street reviews for the
                              remaining 17,197 routes. District officials stated that the remaining
                              routes were not reviewed because AMS staff resources were limited.

                                  Table 2. Southwest Area Route Reviews Conducted in the Albuquerque,
                                             Arkansas, Fort Worth, Dallas, Houston, Louisiana,
                                                         and Oklahoma Districts


                                                               NCSC         District                      Total
                                                               Route         Route          Total        Routes
                                   Selected         Total     Reviews       Reviews        Routes          Not
                                   Districts       Routes    Conducted     Conducted      Reviewed      Reviewed


                                Albuquerque          1,068            40              0           40         1,028
                                Arkansas             1,707            40             73          113         1,594
                                Dallas               3,500            40              0           40         3,460
                                Fort Worth           2,466            40            216          256         2,210
                                Houston              4,300            40              0           40         4,260
                                Louisiana            2,792            40            167          207         2,585
                                Oklahoma             2,186            40             86          126         2,060


                                Total               18,019           280            542          822        17,197

                                               Source: Postal Service NCSC and Southwest Area Officials



7
  We based our projection of the possible number of errors in routes not reviewed on the formula NCSC uses in its
street reviews. To project the error rate for each district, we used the number of errors identified in NCSC street
reviews, determined an error rate per route, and applied the rate to the number of routes not reviewed. The 322,418
projected errors includes:
•    Albuquerque – 31,868 (1,232 errors ÷ 40 routes reviewed = 31 errors per route × 1,028 routes not reviewed)
•    Arkansas – 33,474 (850 errors ÷ 40 routes reviewed = 21 errors per route × 1,594 routes not reviewed)
•    Dallas – 51,900 (585 errors ÷ 40 routes reviewed = 15 errors per route × 3,460 routes not reviewed)
•    Fort Worth – 35,456 (624 errors ÷ 40 routes reviewed = 16 errors per route × 2,210 routes not reviewed)
•    Houston – 80,940 (742 errors ÷ 40 routes reviewed = 19 errors per route × 4,260 routes not reviewed)
•    Louisiana – 51,700 (819 errors÷ 40 routes reviewed = 20 errors per route × 2,585 routes not reviewed)
•     Oklahoma – 37,080 (734 errors ÷ 40 routes reviewed = 18 errors per route × 2,060 routes not reviewed)




                                                         6
Address Management System Information –                                                      DR-AR-07-006
 Southwest Area

                               In addition, the AMS review module in the associate supervisors’
                               training course for district delivery supervisors did not include specific
                               information on AMS quality street reviews. The module provided
                               information only on edit book updates and how to enter the changes
                               into the automated system for submission to district officials.
                               Arkansas District officials stated that they trained delivery personnel
                               in conducting AMS street reviews. However, the AMS staff did not
                               maintain records detailing the team’s street review activities.

                               The Postal Service established AMS to capture, correct, and
                               complete address information. AMS uses automation to enhance the
                               efficiency of mail processing and delivery. AMS address information
                               is captured in sort programs used to process mail in DPS. DPS was
                               created to eliminate manual mail sorting, improve efficiency, and
                               reduce costs.

                               As illustrated in Table 3, for FY 2005, the Southwest Area districts,
                               with the exception of the Louisiana District, improved their DPS mail
                               volume percentages. According to the Transformation Plan,8 Postal
                               Service officials are working to achieve 95 percent of letters sorted to
                               DPS by 2010. A decrease in AMS data errors will assist Southwest
                               Area officials in achieving the DPS goal and will reduce operating
                               costs. 9

                                          Table 3. Southwest Area Districts’ DPS Mail Volume Percentages

                                                                               Percentage     Percentage
                                                         Districts              FY 2005        FY 2006

                                                Albuquerque                       78.6            81.6
                                                Arkansas                          80.1            80.5
                                                Dallas                            78.3            82.5
                                                Fort Worth                        81.0            81.5
                                                Houston                           76.7            77.0
                                                Louisiana                         78.6            77.9
                                                Oklahoma                          80.3            81.1

                                                Southwest Area Average            79.5            80.6
                                                National Average                  76.8            79.8

                                                                     Source: WebEIS
                               If the Albuquerque, Arkansas, Fort Worth, Dallas, Houston, Louisiana,
                               and Oklahoma Districts implemented a program similar to the New
                               York District’s, they could reduce errors by 31.84 percent,10 which

8
  United States Postal Service Strategic Transformation Plan, 2006 – 2010, dated September 2005.
9
  We plan to conduct a future review to identify opportunities to generate revenue, reduce costs, and improve
customer service. The review will incorporate DPS percentages,
10
   The New York Metro Area’s error reduction rate is 71.05 percent and the control group’s error reduction rate is
29.74 percent. The New York Metro Area’s error reduction rate is divided by the control group’s error reduction rate




                                                          7
Address Management System Information –                                                          DR-AR-07-006
 Southwest Area

                                would save the Postal Service $5,201,116 over the next 10 years.
                                We will report $5,201,116 of funds put to better use in our
                                Semiannual Report to Congress. (See Appendix C.)

 New York City                  The New York District has 2,202 city routes. In FY 2005, the NCSC
 District                       team reviewed 2 percent (40 of 2,202) of these routes according to
                                Postal Service guidelines. The team identified 195 AMS errors,
                                approximately five errors per route, and the district received a 99.21
                                percent AMS performance score from the street review.

                                In 1998, the New York District began an extensive AMS quality review
                                program, administered by local AMS officials, which required delivery
                                units to complete AMS street reviews using existing staff. As part of
                                the program, New York District officials added an AMS review module
                                to the associate supervisors’ training course given to delivery
                                supervisors in the New York District. In addition, the New York AMS
                                office established AMS review schedules for all delivery units’ existing
                                staff and an accountability system that monitors the completion of
                                AMS street reviews conducted by delivery supervisors or their
                                designees. As a result, the New York District used existing staff to
                                significantly increase its review coverage.

                                In FY 2005, using the AMS review program, New York District officials
                                established a goal of reviewing all routes annually, including routes
                                reviewed by the district and the NCSC. The existing staff reviewed
                                and implemented corrective actions for the AMS errors identified.
                                AMS reviews conducted by delivery unit staff are implemented by all
                                districts in the New York Metro Area, and the program has been very
                                successful. Since its inception, all districts have achieved significant
                                increases in AMS performance scores. The historical average
                                performance score for the New York District is 99.03 percent.

                                The Deputy Postmaster General and Chief Operating Officer issued
                                a memorandum dated August 23, 2006 on AMS national street
                                Reviews. The memorandum stated that for FY 2007, trained field
                                personnel would conduct all delivery AMS street reviews. The AMS
                                national street review team will not conduct onsite street reviews in
                                FY 2007 and will not have funding to assist the field with travel costs.
                                The FY 2007 delivery AMS street review schedule will be coordinated
                                through area and headquarters address management offices. The
                                NCSC will provide street review materials.



(1.7105 ÷ 1.2974) to arrive at 31.84 percent. The expectation is that the districts will reduce their error rate by 31.84
percent by implementing a program similar to the New York District’s.




                                                            8
Address Management System Information –                                  DR-AR-07-006
 Southwest Area



 Recommendation          We recommend the Vice President, Southwest Area Operations,
                         implement an Address Management System quality review program
                         similar to the New York City District’s that:

                             1. Provides training in Address Management System quality
                                street reviews to delivery supervisors or their designees.

 Management’s            Management disagreed with the recommendation to implement a
 Comments                quality review program similar to the New York City District’s.
                         However, they stated they will begin using the new Address Quality
                         Improvement process. Management stated that the Address Quality
                         Reporting Tool (AQRT), which NCSC recently introduced to the field,
                         is better suited to meet Southwest Area requirements and they will
                         implement it in their area by the end of FY 2007. Management
                         agreed with the recommendation for training and stated they will train
                         delivery supervisors or appropriate designees on the AQRT by the
                         end of FY 2007. We have included management’s comments, in their
                         entirety, in Appendix D.

 Recommendation              2. Establishes a district schedule of annual Address Management
                                System quality street reviews.

 Management’s            Management agreed with the recommendation to schedule annual
 Comments                AMS street reviews and stated they will implement and use AQRT by
                         the end of FY 2007. Management stated they would use a key
                         indicators base for their reviews to target high impact routes for each
                         district on a continual basis.

 Recommendation              3. Directs delivery supervisors or appropriate designees to review
                                delivery routes annually.

 Management’s            Management agreed with the recommendation. Management stated
 Comments                they would train delivery supervisors or appropriate designees on
                         AQRT by the end of FY 2007 and require them to review targeted
                         routes annually.

 Recommendation              4. Establishes a tracking system to monitor completed street
                                reviews.

 Management’s            Management agreed with the recommendation. Management stated
 Comments                they would establish a tracking system to monitor completed street
                         reviews by April 30, 2007.




                                              9
Address Management System Information –                                 DR-AR-07-006
 Southwest Area




 Evaluation of           Management’s comments are responsive to recommendations 1, 2, 3,
 Management’s            and 4. Management’s alternative actions taken and planned should
 Comments                correct the issues identified in the finding. Although management
                         stated they could not validate the actual savings that we estimated, we
                         believe the model used to calculate savings (Appendix C) provides a
                         reasonable estimate of costs the Postal Service could save by
                         implementing a program to reduce AMS errors. Since management
                         plans to implement the AQRT, we believe the potential savings are
                         applicable, and we will report $5,201,116 of funds put to better use in
                         our Semiannual Report to Congress.




                                            10
Address Management System Information –                                                                                  DR-AR-07-006
 Southwest Area


                                                                 APPENDIX A

                                   NCSC REVIEW RESULTS FOR THE SOUTHWEST AREA
                                                                            Historical
                                                             Achieved       Average                                          Achieved
                                                               98%           Score       Achieved             Date of          98%
              Southwest Area        FY 2005    FY 2005       Score in         as of        98%      FY 2006   FY 2006        Score in
       No.    District Locations    Score %   Score Date     FY 2005        FY 2005       Score     % Score    Score         FY 2006

        1    Albuquerque             94.67     2/1/05           No             95.51       No        97.15     7/11/06          No
        2    Arkansas                96.29     7/5/05           No             97.12       No        96.80     3/21/06          No
        3    Dallas                  97.27     6/20/05          No             97.44       No        97.52     2/14/06          No
        4    Fort Worth              97.13     8/23/05          No             96.75       No        95.83     5/23/06          No
        5    Houston                 96.59     1/10/05          No             96.51       No        93.75    12/13/05          No
        6    Louisiana               96.58     7/26/05          No             97.06       No        97.18     9/25/06          No
        7    Oklahoma                96.83     4/4/05           No             97.17       No        96.05     4/24/06          No
        8    Rio Grande              96.12     8/29/05          No             96.00       No          *          *              *

                                                         Source: Postal Service NCSC officials

* OIG previously reviewed the Rio Grande District Address Management Information.




                                                                          11
Address Management System Information –                                                                                        DR-AR-07-006
 Southwest Area


                                                                              APPENDIX B

     FY 200511 ROUTE REVIEWS FOR THE ALBUQUERQUE, ARKANSAS,
     DALLAS, FORT WORTH, HOUSTON, LOUISIANA, AND OKLAHOMA
                            DISTRICTS12



                                                4,500                                                                 99%


                                                4,000
           Total Number of Routes in District




                                                                                           99%
                                                3,500

                                                3,000                                                                               93%

                                                2,500                                                    90%
                                                                                                                                                  94%

                                                2,000                          93%

                                                1,500
                                                                 96%

                                                1,000
                                                                                                  10%                         7%
                                                 500       4%            7%                                     1%                          6%
                                                                                     1%

                                                   0
                                                        Albuquerque    Arkansas      Dallas      Ft. Worth     Houston      Louisiana     Oklahoma
      Total Routes Reviewed                                 40           113          40           256           40           207           126
      Total Routes not Reviewed                           1,028         1,594        3,460        2,210         4,260        2,585         2,060


                                                        Source: Postal Service NCSC and Southwest Area Officials




11
   Since our audit began during FY 2006, we used 2005 AMS street review data to establish an audit baseline. We
monitored the selected districts’ AMS street review performance throughout FY 2006 to determine whether there was
improvement. If there was no improvement in AMS street review performance, we did not adjust our baseline to
include FY 2006 AMS street review performance or district level street review coverage. None of the Southwest Area
districts achieved a passing AMS street review performance score in FY 2006.
12
   A total of 822 routes were reviewed by NCSC and local AMS officials, while 17,197 routes were not reviewed.


                                                                                      12
Address Management System Information –                                DR-AR-07-006
 Southwest Area


                                          APPENDIX C

           OIG CALCULATION OF FUNDS PUT TO BETTER USE

The OIG identified $5,201,116 in funds put to better use over the next 10 years for the
Southwest Area’s Albuquerque, Arkansas, Dallas, Fort Worth, Houston, Louisiana, and
Oklahoma Districts. We used the following assumptions in the calculation of the
$5,201, 116.

                                                   Fiscal   Funds Put to
                  Southwest Area District           Year     Better Use

                 Albuquerque                       2005        $926,551
                 Arkansas                          2005          485,829
                 Dallas                            2005          561,654
                 Fort Worth                        2005          482,160
                 Houston                           2005        1,238,971
                 Louisiana                         2005        1,025,536
                 Oklahoma                          2005          480,415

                 Total for a 10-Year Period                   $5,201,116

1.   We used the New York Metro Area as our standard for predicting cost savings
     possible for the Albuquerque, Arkansas, Dallas, Fort Worth, Houston, Louisiana,
     and Oklahoma Districts.

2.   We assumed no Postal Service areas other than New York Metro had implemented
     an error reduction program during the period we conducted the AMS street
     reviews. These areas were our control group for estimating the net benefit of the
     New York Metro program.

3.   The AMS National Street Review Model is used to calculate cost savings.
     Therefore, we assumed that it realistically represented costs the Postal Service
     could save by implementing a program that would reduce the incidence of AMS
     errors. However, in our opinion, any costs saved would have to be related to a
     reduction in overtime or casual hours; therefore, labor rates used should be hourly
     overtime rates (which was not the case).

4.   We used the AMS National Street Review Model unchanged, with one exception:
     the model had FY 1999 labor rates imbedded. We updated these rates to reflect
     FY 2007 rates by escalating by 3.0 percent per year from 1999 to FY 2006 and by
     escalating 2.4 percent per year from FY 2006 to FY 2007.

5.   We assumed the cost of implementing an error reduction program would be
     negligible.



                                              13
Address Management System Information –                                 DR-AR-07-006
 Southwest Area

6.   We assumed the average cost per error for the Albuquerque, Arkansas, Dallas,
     Fort Worth, Houston, Louisiana, and Oklahoma Districts would remain constant
     before and after program implementation.

7.   If the Albuquerque, Arkansas, Dallas, Fort Worth, Houston, Louisiana, and
     Oklahoma Districts began implementing a program immediately, FY 2007 would be
     devoted to setup and training. We assumed cost savings would not begin until FY
     2008. Our calculation of savings (funds put to better use) is a discounted cash flow
     analysis over a 10-year period. The amount we will report in our Semiannual
     Report to Congress is the present value of the estimated savings over the
     10 years.

8.   AMS errors can never be reduced to zero. We assumed the practical lower limit to
     be a 1 percent error rate. However, this constraint did not affect the calculation for
     the Albuquerque, Arkansas, Dallas, Fort Worth, Houston, Louisiana, and Oklahoma
     Districts.

9.   We assumed error rates on rural routes would respond to an error reduction
     program in the same way as city routes.

10. In our analysis of the New York Metro Area, we excluded the Caribbean District
    because of uncertainties regarding implementation of an error reduction program.

11. Not all categories of AMS errors have associated costs. We assumed that costly
    and non-costly errors would respond to an error reduction program in the same
    manner. That is, if the overall reduction rate for all AMS errors was 20 percent, the
    reduction rate for costly errors was also 20 percent.




                                            14
Address Management System Information –         DR-AR-07-006
 Southwest Area


                APPENDIX. D. MANAGEMENT’S COMMENTS




                                          15
Address Management System Information –        DR-AR-07-006
 Southwest Area




                                          16
Address Management System Information –                                 DR-AR-07-006
 Southwest Area


                                          APPENDIX E

                              PRIOR AUDIT COVERAGE

                                                                              Funds Put to
                                                                               Better Use
                                                                              Over the Next
            Audit                  Report Number         Issued Date            10 Years
Address Management                 DR-AR-07-005          May 1, 2007            $7,881,288
System Information – Pacific
Area
Address Management                 DR-AR-07-004          May 1, 2007               $455,197
System Information – Capital
Metro Area
Address Management                 DR-AR-07-002        March 30, 2007             $862,134
System Information –
Southeast Area
Address Management                 DR-AR-07-001        March 15, 2007           $4,590,875
System Information –
Northeast Area
Address Management                 DR-AR-06-008    September 30, 2006            $2,078,506
System Information – Great
Lakes Area
Address Management                 DR-AR-06-001        January 25, 2006            $988,945
Systems – Southwest Area –
Rio Grande District




                                              17
